Record Press Inc., 229 West 36th Street, New York, N.Y. 10018•
Tel: (212) 619-4949• Fax No. (212) 608-3141
STATE OF NEW YORK,
SS:

86242

AFFIDAVIT OF SERVICE

COUNTY OF NEW YORK

Howard Daniels being duly sworn, deposes and says that deponent is not party to the action, and is
over 18 years of age.
That on the 19th day of February 2021 deponent served 3 copies of the within
BRIEF AMICI CURIAE OF THE AMERICAN CIVIL LIBERTIES UNION, THE ACLU OF FLORIDA, THE
NAACP LEGAL DEFENSE AND EDUCATIONAL FUND, IN., AND THE R STREET INSTITUTE, IN
SUPPORT OF PETITIONERS

upon the attorneys at the addresses below, and by the following method:
BY FEDERAL EXPRESS NEXT BUSINESS DAY DELIVERY

Andrew Lee Adler
Federal Public Defender's Office
One East Broward Blvd.
Suite 1100
Fort Lauderdale, FL 33301
954-356-7 436
andrew_adler@fd.org

Elizabeth B. Prelogar
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington DC 20530-0001
202-514-2217
SupremeCtBriefs@USDOJ.gov

Attorneys for Petitioner

Attorneys for Respondent

I, Howard Daniels, declare under penalty of perjury under the laws of the United States of America
that the foregoing is true and correct, executed on February 19, 2021, pursuant to Supreme
Court Rule 29.5(c). All parties required to be served, have been served.

d~~t!J~

Howard Daniels

Sworn to me this
February 19, 2021
Jasmine Williams
Notary Public, State of New York
No. 01 Wl6397949
Qualified in Queens County
Expires September 16, 2023

Case Name: Terry v US
Docket/Case No. 20-5904

